                              U.S. COMMODITY FUTURES TRADING COMMISSION
                                                     Three Lafayette Centre
                                          1155 21st Street, NW, Washington, DC 20581
                                                  Telephone: (202) 418-5110
                                                   Facsimile: (202) 418-5522


                                                          April14, 2014
   Office of the
Inspector General




      Mark Wetjen
      Acting Chairman
      Commodity Futures Trading Commission
      Washington, D.C. 20581

      Dear Chairman Wetjen:

             On July 22,2010, President Obama signed into law the Improper Payments Elimination
      and Recovery Act of2010 (IPERA; Public Law 111-204). IPERA directs each agency's
      Inspector General, beginning with Fiscal Year (FY) 2011, to review agency improper payments
      and submit a report to the head of the agency, select congressional committees, and the
      Comptroller General. An improper payment is any payment that should not have been made or
      that was made in an incorrect amount under statutory, contractual, administrative, or other
      legally applicable requirements. 1 It is the responsibility of the agency to review during the year
      after IPERA' s enactment2 and thereafter annually all programs and activities and identify those
      that are susceptible to significant improper payments. In accordance with OMB Memorandum
      M-11-16, the agency's Inspector General is expected to review the agency's Annual Financial
      Report (AFR) and assess the agency's compliance with Improper Payments Information Act of
      20023.

      Accordingly, the Office of the Inspector General conducted a limited review of the Commodity
      Futures Trading Commission's (CFTC) compliance with IPERA for FY 2013. Our limited
      review was carried out in a reasonable and prudent manner and in accordance with Office of
      Management and Budget Circular No. A-123, Management Accountability and Control revised
      parts I and II to Appendix C4 •

      Our scope included a review of the CFTC Accounting Officer's attestation to the absence of any
      improper payments at CFTC during FY 2013 and a review of the agency's Annual Financial
      Report-including the independent auditors report of the agency's fmancial statements and the
      fmancial statements for the CFTC Customer Protection Fund. We also reviewed the CFTC
      database of payments during FY 2013 which contained 7,739 payments to vendors, individuals,

      1
        See Improper Payments Elimination and Recovery Act of2010, Section 2 (e) (codified at 31 U.S.C. 3321 note).
      2
        See Improper Payments Elimination and Recovery Act of2010, Section 2(a) (codified at 31 U.S.C. 3321note).
      3
        IPERA amended the Improper Payments Information Act of2002 Public Law 107-300.
      4
        See OMB M-11-16 Memorandum for the Heads ofExecutive Departments and Agencies from Jacob J. Lew,
      Director Subject: Issuance of Revised Parts I and II to Appendix C ofOMB Circular A-123, dated April14, 2011.
and external entities. In order to identify potential improper payments we established several
database queries which the Office of Financial Management (OFM) used to generate reports
indicating no improper payments were made during Fiscal Year 2013. OFM inf01med us and we
reviewed documentation indicating that payments were checked to the government-wide "Do
Not Pay" 5 list and no exceptions were found. We also reviewed the Agency Financial Report for
FY20 13 and found that the agency determined "that none of its programs and activities are
                                                                                           6
susceptible to significant improper payments at or above the threshold levels set by OMB," and
we agree.

Therefore, during the OIG's limited review, nothing came to our attention that would indicate
that the CFTC did not comply with IPERA requirements.

                                                  Sincerely,




                                                  Inspector General

cc:
The Honorable Thomas R. Carper, Chairman, Senate Committee on Homeland Security and
Governmental Affairs;
The Honorable Tom Coburn, Ranking Member, Senate Committee on Homeland Security and
Governmental Affairs;
The Honorable Darrell E. Issa, Chairman, House Conunittee on Oversight and Government
Reform;
The Honorable Elijah Cummings, Ranking Member, House Conunittee on Oversight and
Govenunent Reform;
Mr. Gene L. Dodaro, Comptroller General of the United States, United States Government
Accountability Office;
Mr. Mark Reger, Interim Conh·oller, Office of Federal Financial Management.




5
 See OMB M- 12-11 Memorandum for the Heads ofExecutive Departments and Agencies from Jeffe1y D. Zients,
Acting Director Subject: Reducing lmproper Payments through the "Do Not Pay List" dated April 12, 20 12.
6
 See Commodity Futures Trading Commission Agency Financial Report Fiscal Year 20 13 page 73, avai lable at
http://www .cftc.gov/ucm/groups/pub! ic/@aboutcftc/documents/fi le/20 13afrreduced. pdf


                                                      2
